tm
I lisa iirnr

'Qllje Jimpreme (Eonxt of ($)tjt0

Kerr Buildings, Inc.

FEB -4 2820

Case No. 2019-1362

v.

ENTRY

Scott Bishop
v.
Jeremy Kerr

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Henry County Court of Appeals; No. 7-19-06)

MJUA&JL4.

+-+

J

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

A

UAdtr

iUfjc Jinpreme Court of (©t|to

PIT'pi
FEB 13 2S2fl
. CLERK OF COURT
SUPREME COURT OF OHie

State of Ohio ex. rel, Jeremy Kerr

1
Case No. 2019-0888

v.

JUDGMENT ENTRY

Judge John Collier

APPEAL FROM THE
COURT OF APPEALS

This cause, here on appeal from the Court of Appeals for Henry County, was
considered in the manner prescribed by law. On consideration thereof, the judgment of
the court of appeals is affirmed, consistent with the opinion rendered herein.
It is further ordered that appellant’s request for an order pursuant to S.Ct.Prac.R.
16.07(B) and request for an immediate order pursuant to S.Ct.Prac.R. 16.07(B) are denied
as moot.
It is further ordered that a mandate be sent to and filed with the clerk of the Court
of Appeals for Henry County.

(Henry County Court of Appeals; No. 7-19-05)

JUUUL
Maureen O’Connor
Chief Justice

The official case announcement, and opinion if issued, can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

(Until this opinion
s in the Ohio Official Reports advance sh
ex rel. Kerr v. Collie^mpp Opinion No. 2020-Ohio-457.]

may be cited as State

NOTICE
This slip opinion is subject to formal revision before it is published in an
advance sheet of the Ohio Official Reports. Readers are requested to
promptly notify the Reporter of Decisions, Supreme Court of Ohio, 65
South Front Street, Columbus, Ohio 43215, of any typographical or other
formal errors in the opinion, in order that corrections may be made before
the opinion is published.

Slip Opinion No. 2020-Qhio-457
The State ex rel. Kerr, Appellant, v. Collier, Judge, Appellee.
[Until this opinion appears in the Ohio Official Reports advance sheets, it
may be cited as State ex rel. Kerr v. Collier, Slip Opinion No. 2020-Ohio-457.]
Prohibition—Court of common pleas had subject-matter jurisdiction to enter
charging order and appoint receiver—Court of appeals’ judgment
dismissing complaint affirmed.
(No. 2019-0888—Submitted November 13, 2019—Decided February 13, 2020.)
Appeal from the Court of Appeals for Henry County, No. 7-19-05.

Per Curiam.
fl[ 1} This appeal involves a request by appellant, Jeremy Kerr, for a writ
of prohibition to vacate charging orders and receivership orders concerning Kerr’s
membership interests in two limited-liability companies. The Third District Court
of Appeals dismissed Kerr’s complaint, concluding that appellee, Henry County
Court of Common Pleas Judge John Collier, did not patently and unambiguously
lack jurisdiction to issue the orders. After Judge Collier did not file a merit brief in

Supreme Court of Ohio

this appeal, Kerr filed two motions asking this court to reverse the court of appeals’
judgment under S.Ct.Prac.R. 16.07(B). We affirm the court of appeals’ judgment
and deny Kerr’s motions as moot.
Background
ftf2} In 2011, Kerr Buildings, Inc., of which Kerr was the president, sued
Scott Bishop regarding a contract dispute in the Henry County Court of Common
Pleas, with Judge Collier presiding. Bishop asserted a counterclaim against KenBuildings and a third-party complaint against Ken individually, and the lawsuits
resulted in a monetary judgment of almost $80,000 against Ken Buildings and Ken.
In May 2013, at Bishop’s request, Judge Collier entered a charging order concerning
Ken’s membership interests in two limited-liability companies. See R.C. 1705.19.
The charging order required that any payments to which Ken would be entitled from
the limited-liability companies be paid to Bishop. In January 2018, Judge Collier
entered a nunc pro tunc charging order. In August 2013, also at Bishop’s request,
Judge Collier appointed a receiver over Ken and Kerr Buildings. In March 2014,
Ken filed a motion asking Judge Collier to set aside the receivership order, arguing
that the order violated Ken’s due-process rights because he was not properly served
with Bishop’s motion asking for the order. Judge Collier denied the motion, and the
Third District affirmed. See Kerr Bldgs., Inc. v. Bishop, 3d Dist. Henry No. 7-14-07,
2014-Ohio-5391.
{1f 3} In April 2018, Judge Collier entered an order titled “Amended Orders
to Receiver.” Kerr alleges that he filed multiple motions asking Judge Collier to
vacate the amended receivership order and that he appealed Judge Collier’s decisions
denying those motions. He alleges that the court of appeals dismissed his appeals
sua sponte as improper requests for reconsideration. In April 2019, Ken filed in the
Third District a complaint for a writ of prohibition against Judge Collier seeking to
invalidate the charging order, the nunc pro tunc charging order, the receivership
order, and the amended receivership order. In general terms, Ken’s complaint

2

January Term, 2020

alleges that the orders were entered in violation of his due-process rights, that some
of the powers granted to the receiver are unauthorized by law, and that the charging
orders exceed Judge Collier’s authority under R.C. 1705.19.
4} Judge Collier moved to dismiss Kerr’s complaint under Civ.R.
12(B)(6). The court of appeals granted the motion, holding that Judge Collier did
not patently and unambiguously lack jurisdiction to enter a charging order or to
appoint a receiver.
5} Kerr appealed to this court as of right.
Analysis
6} “A motion to dismiss for failure to state a claim upon which relief can
be granted tests the sufficiency of the complaint.” Volbers-Klarich v. Middletown
Mgt, Inc., 125 Ohio St.3d 494, 2010-0hio-2057, 929 N.E.2d 434,

11. Dismissal

of a prohibition complaint under Civ.R. 12(B)(6) is appropriate “if, after presuming
the truth of all factual allegations of the complaint and making all reasonable
inferences in [the relator’s] favor, it appears beyond doubt that he can prove no set
of facts entitling him to the requested extraordinary writ of prohibition.” State ex
rel. Hemsley v. Burnham Unruh, 128 Ohio St.3d 307, 201 l-Ohio-226, 943 N.E.2d
1014, U 8.
{% 7} To be entitled to a writ of prohibition, a relator generally must show that
a court‘is about to exercise judicial power without authority and that there is no
adequate remedy in the ordinary course of the law. State ex rel. Sliwinski v. Burnham
Unruh, 118 Ohio St.3d 76, 2008-0hio-1734, 886 N.E.2d 201,

7. But Kerr argues

that he need not show that he lacks an adequate remedy at law because Judge Collier
patently and unambiguously lacked jurisdiction to enter the orders. See State ex rel.
Sapp v. Franklin Cty. Court of Appeals, 118 Ohio St.3d 368, 2008-Ohio-2637, 889
N.E.2d 500, T| 15. Therefore, based on the allegations in the complaint, Kerr’s
prohibition claim can succeed only if he establishes that Judge Collier patently and
unambiguously lacked jurisdiction.

3

Supreme Court of Ohio

8} Kerr challenges the propriety of the charging orders and the
receivership orders, but even if certain aspects of the orders are improper, he has not
shown that Judge Collier patently and unambiguously lacked jurisdiction to enter
them. R.C. 1705.19(A) authorizes a common pleas court to enter a charging order
against a judgment debtor’s membership interest in a limited-liability company. And
R.C. 2735.01(A)(4) authorizes a common pleas court to appoint a receiver “after
judgment, to carry the judgment into effect.” “Typically, a court will deny relief in
prohibition when a respondent judge has general subject-matter jurisdiction and will
deem any error by the judge to be an error in the exercise of jurisdiction.” State ex
rel. Sponaugle v. Hein, 153 Ohio St.3d 560, 2018-Ohio-3155, 108 N.E.3d 1089,
1124.
9} Because Judge Collier had subject-matter jurisdiction to enter a
charging order and to appoint a receiver, Kerr has not shown that the judge patently
and unambiguously lacked jurisdiction. The court of appeals, therefore, correctly
dismissed Kerr’s complaint.
{% 10} As a final matter, Kerr filed two motions asking us to reverse the
court of appeals’ judgment because Judge Collier did not file a merit brief in this
case. S.Ct.Prac.R. 16.07(B) provides that if the appellee fails to timely file a merit
brief, we “may accept the appellant’s statement of facts and issues as correct and
reverse the judgment if the appellant’s brief reasonably appears to sustain reversal.”
Because Kerr has not shown that we should reverse the court of appeals’ judgment,
we deny his motions as moot.
Judgment affirmed.
O’Connor, C.J., and Kennedy, French, Fischer, DeWine, Donnelly,
and Stewart, JJ., concur.

Jeremy Kerr, pro se.

4

n
FILED

HENRY'COUNTY .
COMMON PLEAS COURT

Q

^!fl!3 HAY 29 P Z 42^
CONMSE L SCHNITKEY
CLERK OF COURTS

IN THE COMMON PLEAS COURT OF HENRY COUNTY, OHIO
Kerr Buildings, Inc.
Plaintiff,
VS.

)

Case No. 11-CV0001

)

MOTION FOR CHARGING ORDER

)

Scott Bishop
Defendant,
vs.

Alan J. Lehenbauer (0023941)
Attorney for Defendant Bishop
The McQuades Co., L.P.A.
PO Box 237
Swanton, OH 43558
Phone: (419) 826-0055
FAX: (419) 825-3871

)
)
)

Jeremy Kerr

E-mail: mcquadelaw@embarqmail.com

)

Third-Party Defendant. )
Now comes defendant, Scott Bishop, by and through counsel,
and pursuant to Ohio Rev. Code ("O.R.C.") § 1705.19, and moves
this Court for a charging order against third-party defendant,
Jeremy Kerr's limited liability interests for the reasons set
forth in the following Memorandum in Support.
Respectfully submitted,

Alan J. Lehenbauer
Attorney for Defendant Bishop
MEMORANDUM IN SUPPORT
As set forth in the Affidavit of Defendant Bishop's counsel
attached to this Memorandum, on October 16, 2012, judgment was
rendered in the within case against Third-Party Defendant, Jeremy
Kerr, individually and/or dba Kerr Buildings Inc., for the sum of
1

-jT)

A^eww* c.

n

n

$79,648.00, together with interest thereon at the statutory rate
of three percent per annum from October 16, 2012, and costs in the
amount of $25.00. The entire judgment balance remains unpaid.
As also set forth in the attached Affidavit, upon information
and belief, Third-Party Defendant, Jeremy Kerr, has an interest in
the following limited liability company:
Beaver Creek Development Co., LLC
13926 Defiance Pike
Rudolph, OH 43462
As to limited liability company interests, O.R.C.
• §1705.19(A) provides:
If any judgment creditor of a member of a limited liability
company applies to a court of common pleas to charge the
membership interest of the member with payment of the
unsatisfied amount of the judgment with interest, the court
may so charge the membership interest. To the extent the
membership interest is so charged, the judgment creditor has
only the rights of an assignee of the membership interest as
set forth in section 1705.18 of the Revised Code. Nothing in
this chapter deprives a member of the member's statutory
exemption.
Clearly, Defendant Bishop is entitled under O.R.C. §1705.19
to an order charging Third-Party Defendant, Jeremy Kerr's interest
in the limited liability company with payment of the unsatisfied
balance of the judgment.
WHEREFORE, Defendant Bishop respectfully requests this Court
to enter an order charging Third-Party Defendant, Jeremy Kerr's
interest in the limited liability company, Beaver Creek
Development Co.,. LLC, with payment of the unsatisfied judgment.
An Order for this Court's convenience is submitted herewith.
Respectfully submitted,

Alan J. Lejhenbauer
Attorney for Defendant Bishop
2

n

n
PROOF OF SERVICE

I hereby certify that the foregoing Motion and the
accompanying Affidavit and Charging Order were sent by certified
mail, return receipt requested, as well as by first-class U.S.
mail, postage prepaid, to:

Jeremy Kerr, 13926 Defiance Pike,
Rudolph, OH 43462, this
day of
, 2013
aJ tori ^3^6*2.
Mfr-vrUAJ . IAAiW /,
AJ(o
Alan J./ Lehenbauer
Attorney for Defendant Bishop

3

FILED

HENRY COUNTY
COMMON PLEAS COURT

D

C. zo°m 29 p 2- iji7\
CnFptAH»^KEY
IN THE COMMON PLEAS COURT OF HENRY COUNTY, OHIO"^1 or COURTS
Kerr Buildings, Inc.
Plaintiff,
VS.

)

Case No. 11-CV0001

)

CHARGING ORDER

)

Scott Bishop

Defendant,
vs.

Alan J. Lehenbauer (0023941)
Attorney for Defendant Bishop
The McQuades Co., L.P.A.
PO Box 237
Swanton, OH 43558
Phone: (419) 826-0055
FAX: (419) 825-3871

)
)
)

Jeremy Kerr

E-mail: mcquadelaw@embarqmail.com

)

Third-Party Defendant. )
This day this cause came to be heard upon Motion for Charging
Order filed by Defendant, Scott Bishop, together with a supporting
Affidavit of Defendant's counsel, seeking an Order charging ThirdParty Defendant, Jeremy Kerr's interest in the following limited
liability companies:
Beaver Creek Development Co., LLC
13926 Defiance Pike
Rudolph, OH 43462
Beaver Creek Properties, LLC
13926 Defiance Pike
Rudolph, OH 43462
(hereinafter referred to as the "Limited Liability Companies")
The Court, being duly advised in the premises, finds that
said Motion is well taken.
IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED that said
Motion is hereby granted, and that Third-Party Defendant's limited
liability interests in the Limited Liability Companies are
1

\li

FAG®

journalized date

/W&HVW p

n

n

be made instead to Defendant Bishop in reduction of his judgment.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Limited
Liability Companies and the members comprising the Limited
Liability Company make no payments, including but not limited to
distributions of earnings and withdrawals of capital, to ThirdParty Defendant, Jeremy Kerr, on account of his interests in the
Limited Liability Companies until such time as Defendant Bishop's
judgment has been satisfied of record.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that Defendant
Bishop serve copies of this ORDER by certified mail, return
receipt requested, upon the Limited Liability Companies, by
serving Third-Party Defendant, Jeremy Kerr, as well as those
persons or entities whom Defendant Bishop has reason to believe
may have a membership interest in the Limited Liability Companies.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that Defendant
Bishop be and hereby is authorized to obtain a writ of execution
and to proceed with execution sale of Third-Party Defendant,
Jeremy Kerr's interests in the Limited

rability Companies.

Dated:

jsal

3

/\
\7

r

f;l

:

: PY
-j

;"Q

y] £3 20 A S-3'l

u

‘SIM'S™
IN THE COMMON PLEAS COURT OF HENRY COUNTY, OHIO
Kerr Buildings, Inc.
Plaintiff,

)

Case No. 11-CV0001

)

ORDER APPOINTING RECEIVER

vs.

.)

Scott Bishop

)

Defendant,
vs.

Alan O'. Lehenbauer. (0023941)
Attorney for Defendant Bishop
The McQuades Co., L.P.A.
PO Box 237
Swanton, OH 43558
Phone: (419) 826-0055
FAX: (419) 825-3871

)
)

Jeremy Kerr

E-mail: rncquadelawGembarqmai 1.com

)

Third-Party Defendant. )
This cause came on to be heard on Defendant, Scott Bishop's
Motion for Appointment of a Receiver, and the Court having
considered Scott Bishop's Motion for Appointment of a Receiver,
and being duly advised in the premises, the Court now finds as
follows:
A.

Kerr Buildings, Inc., filed a Complaint on January 3,

2011. Scott Bishop filed an Answer, Counterclaims and Crossclaims against Jeremy Kerr ("Kerr") on or about May 3, 2011. This
Court entered a Judgment Entry on October 16, 2012, dismissing the
Complaint of Kerr Buildings, Inc. and granting judgment in favor
of Scott Bishop in the amount of $79,648.00 against Kerr Buildings
and Kerr.
B.

Kerr Buildings, Inc. and Kerr are in default of their

obligations to Scott Bishop.
1

£

C.

Kerr has an interest in- the following limited liability

companies:
Beaver Creek Development Co., X.LC
13926 Defiance Pike
Rudolph, OH 43462
Beaver Creek Properties, LLC
13926 Defiance Pike
Rudolph, OH 43462
(hereinafter referred to as the "Limited Liability Companies") '
This Court issued a Charging Order on May 29, 2013,
D.
concerning the following parcels of real estate, in which an
interest is held by Kerr and/or the Limited Liability Companies:
• Parcel: X78-509-350307009000
Address: 13345 Ash, Weston, OH

43569

• Parcel: A01-311-040000009500
Address: 10730 Cygnet Rd., Cygnet, OH

43413

• Parcel: 132-410-240000021000
Address: 13926 Defiance Pike, Rudolph, OH 43462
• Parcel: P60-300-330407001000
Address: 28926 Simmons Rd., Perrysburg, OH
E.

43551

Scott Bishop recorded with the Wood County Recorder

liens on the aforesaid parcels of real estate.
Kerr was convicted on three felony counts of forgery and
P.
other offenses by the Court of Common Pleas of Wood County for
incidents unrelated to the facts in the above captioned case.
Kerr is now incarcerated in the Ohio Department of Rehabilitation
and Correction and is serving a stated prison term of 7 years and
8 months for these convictions.
G.

It is in the best interest of Kerr and Kerr Buildings,

Inc., and their respective creditors that a receiver be appointed
over Kerr and Kerr Buildings, Inc.
H.

Scott Bishop is entitled to the appointment of a

receiver pursuant to Ohio Revised Code § 2735.01(C).
2

XT IS THEREFORE ORDERED, ADJUDGED, AND DECREED;
Christopher M. Frasor ("the Receiver") is hereby
1.
appointed the receiver for all of the real and personal property,
general Intangibles, and all other assets of Kerr Buildings, Inc.
and Kerr of whatever kind or nature, and the Receiver shall have
all authority and power of a receiver under Ohio law and as
ordered by this Court.
2.
The Receiver shall take immediate possession, control,
management, operation and charge of Kerr s businesses, including
but not. limited to Kerr Buildings, Inc . and Beaver Creek
Pursuant to Ohio Revised Code S 2735.04 and
Dfa.v.cxyiM'msuc k-O. , LLC.
under the control of this Court, the Receiver shall have all
authority and power of a receiver under Ohio law, including the
following powers and duties:
The Receiver shall take immediate possession,
a)
control, management and charge of the accounting books and records
of Kerr and Kerr Buildings, Inc., o£ whatever nature and wherever
located, in the possession of Kerr and Kerr Buildings, Inc., or
any other person or entity, including all information regarding
the assets, liabilities, equity, income and expenses of Kerr and
Kerr Buildings, Inc. The Receiver shall take immediate
possession, control, management and charge of all of Kerr and Kerr
Building, Inc. 's financial statements (whether consolidated or by
individual entity), ledgers and journals, balance sheets, trial
balances, statements of cash flows, income statements, statements
of retained earnings, accounting journals and books of original
entry, including but not limited to (1) accounts receivable agings
and any other documentation which indicate the amounts owing from
customers on accounts receivable and from such -amounts are or were
owing and when any amounts were collected and deposited, and the
3

ii.r. ~:

v;

use , application or disposition thereof? (2) fixed asset ledgers,
schedules or records documentation and/or appraisals Kerr and/or
Kerr Building, Inc.'s equipment, inventory, furnishings, and
supplies? (3) inventory listings or other detail? (4) all lists,
schedules or records pertaining to Kerr and Kerr Building, Inc.'s
stocks, bonds, shares or interests in any mutual fund,
proprietorship, general or limited partnership, corporation, or
limited liability company, all notes or other instruments owing to
Kerr and/or Kerr Building, Inc., and information regarding any
other intangibles of Kerr and/or Kerr Building, Inc.? (5) all
information and documentation which relates or pertains .to any
checking, saving banking and money management accounts of any
kind or nature of Kerr and/or Kerr Buildings, Inc., or into which
any proceeds of the collection or sale of any asset (including
accounts receivable) of Kerr and/or Kerr Buildings, Inc., have
been deposited; (6) all accounts payable and receivable
documentation and information and all correspondence or written
documents regarding negotiations with current accounts or proposed
accounts ? (7} all information of whatever type or nature,
regarding the payroll and benefits of the owners, management.
officers and employees of Kerr and/or Kerr Buildings, Inc.,
including wage or salary information, expense reimbursement
information, medical insurance information, or other employee
deductions withheld or to be withheld, and all information
regarding the trust fund or withholding taxes whether federal,
state, or local and any information regarding any and all of the
employer matching obligations or the employer payroll tax
obligations; (8) all information and documentation of any asset
transfers by Kerr and/or Kerr Buildings, Inc., in the past four
years; (9) all information and documentation regarding the
4

federal, state and local tax liabilities of Kerr and/or Kerr
Buildings, Inc., including any and all federal, state and local
tax returns filed or unfiled, and any documents generated during
the preparation and filing of tax returns; (10) all contracts
(including, without limitation, insurance policies) and leases to
which Kerr and/or Kerr Buildings, Inc., are a party or have been a
party; (11) all information and documentation of any other
financial transaction or interest in and to any asset of Kerr
and/or Kerr Buildings, Inc., which may be necessary or pertinent
to the Receiver's operation and management of Kerr and Kerr
Buildings, Inc.'s .assets; and (12) any,documentation that relates .
or pertains to Kerr and/or Kerr Building, Inc., and is kept in the
ordinary course of business in connection with the record-keeping
or accounting.

The information described in this subparagraph

shall hereinafter be referred to as the "Books and Records."

b)

The Receiver shall take immediate possession,

control, management and charge of all assets and property of Kerr
and Kerr Buildings, Inc., of whatever nature or kind, consisting
of all personal property and all real property, including any
leasehold interests and the following parcels located in Wood
County, Ohio:
* Parcel: X78-509-3503070G9000
Address: 13345 Ash, Weston, OH

43569

• Parcel: aQI-311-040000009500
Address; 10730 Cygnet Rd., Cygnet, OH

43413

* Parcel: 132-410-240000021000
Address: 13926 Defiance Pike, Rudolph, OH 43462
• Parcel: P60-300-330407001000
Address: 28926 Simmons Rd., Perrysburg, OH

43551

and all cash or cash equivalents including, but not limited to,
rights, title and interest in and to all bank accounts of Kerr
5

and/or Kerr Buildings, Inc., all interests under insurance
policies and proceeds thereof, all accounts and notes receivable,
all inventory of any type or nature, all furniture, fixtures,
equipment, computers (hardware and software), and all general
intangibles of Kerr and/or Kerr Buildings, Inc., all choses in
action and causes of action, including avoidance actions for
transfers of any of the assets of Kerr and/or Kerr Buildings,
inc • t for less than equivalent value or other improper transfers
against the transferees of those assets, and any other asset or
interest owned by Kerr and/or Kerr Buildings, Inc., or in which
Kerr and/or Kerr Buildings,-inc., assert an interest which has any
value (collectively, "the Assets"), and the Books and Records and
the Assets are hereby placed in custodia legis and are subject to
the exclusive jurisdiction of this Court,
The Receiver shall have the authority to operate
c)
and manage the businesses of Kerr and Kerr Buildings, Inc., as he
deems prudent in his sole and exclusive discretion throughout this
litigation, subject to further order of this Court, The Receiver
shall preserve and care for any and all of the assets and utilize
any and all of the Assets to preserve and maximize the value of
the Assets,
d)

The Receiver is authorized to collect all profits,

rents, proceeds and revenues of any nature whatsoever generated
from the Assets and/or the business operations of Kerr and/or Kerr
Buildings, Inc. (including, without limitation, insurance
proceeds), and to pay all necessary expenses relating to said
operations, as he deems prudent in his sole discretion.
The Receiver shall have the authority to maintain
e)
or purchase insurance from any agent or carrier, of any type
reasonably necessary or desirable, on all the Assets, subject to
6

maintaining adequate coverage.appropriately assigned to Scott
Bishop and naming Scott Bishop as a loss payee thereof.
The Receiver is authorized to establish or maintain
f)
one or more bank accounts in the Receiver's name for his
operations as Receiver in this matter at any federally insured
bank with offices in Wood County, Ohio. The Receiver shall keep a
true and accurate account of any and all receipts and
disbursements which the Receiver shall receive or make as Receiver
in the course of the operation of the businesses of Kerr and/or.
Kerr Buildings, Inc.
Upon request of Scott Bishop, and subject to.
g)
further Court Orders, the Receiver is authorised to negotiate and
effect an orderly sale, transfer, or assignment of all or a
portion of any of the Assets (including collection of accounts
receivable and proceeds of available insurance) in or outside of
the ordinary course of business of Kerr and/or Kerr Buildings,
Inc. , or of all or a portion of Kerr and/or Kerr Buildings, Inc.'s
businesses as a going concern and, from the proceeds thereof, to
pay the secured and unsecured indebtedness of Kerr and/or Kerr
Buildings, Inc., including indebtedness which arises during the
course of the Receiver's operation of the businesses of Kerr
and/or Kerr Buildings, Inc., in accordance with the respective
priorities of such obligations.
The Receiver is authorised but not required to
h)
institute, prosecute, or intervene in any lawsuit, summary
proceeding or investigation against any other person(e) or
entity(ies) to preserve and/or maximize the value of the Assets or
to obtain possession of any of the Assets unlawfully in the
possession of third parties.
The Receiver is authorized but not required to
7

or the Receivership estate based upon the non-payment of such
taxes or utilities prior to the date of this Order and from
attempting to collect taxes and utility charges from the Receiver
pre-dating the date of this Order.
Kerr and Kerr Buildings, Inc., and any persons, firms or
4.
entities acting under the direction of Kerr and/or Kerr Buildings,
Inc. , and any third parties, persons, firms or entities, shall,
upon presentation of a copy of this Order, identify the location
of and deliver to the Receiver, any and all receivership property,
both the Books and Records and the Assets, in the possession or
under the control of such parties; and all persons are enjoined
and restrained (a) from payment of any amounts owing to Kerr.
and/or Kerr Buildings, Inc., to anyone other that the Receiver and
(b) from in any way disturbing ox interfering with the collection,
management or sale of any of the Assets.
All creditors, claimants, bodies politic, parties in
5.
interest , and their respective attorneys, servants, agents, and
employees, and all other persons , firms, and corporations be, and
they hereby are, jointly and severally, enjoined and stayed from
commencing or continuing any action at law or suit or proceeding
in equity to foreclose any lien or enforce any claim against Kerr
and/or Kerr Buildings, Inc., or the Books and Records or Assets,
or against the Receiver in any court,

The parties are further

stayed from executing or issuing or causing the execution or
issuance out of nay Court of any writ, process, summons
attachment, subpoena, replevin, execution, or other process for
the purpose of impounding or taking possession of or interfering
with, or enforcing any claim or lien upon any property owned b or
in the possession of Kerr, Kerr Buildings, Inc., or the Receiver,
and from doing any act or thing whatsoever to interfere with the

9

Receiver in the discharge of his duties in these proceedings or
with the exclusive jurisdiction of this Court over Kerr and Kerr
Buildings, Inc., the Books and Records and Assets and the said
Receiver. Notwithstanding anything contained in the foregoing,
Scott Bishop may foreclose his liens on the real property owned,
in whole or in part, by Kerr and/or Kerr Buildings, Inc.
Kerr and Kerr Buildings, Inc. and their agents and
6.
employees, and any other party shall immediately turn over to the
Receiver any and all Books and Records.
Kerr and Kerr Buildings, Inc., and their agents and
7,
employees, and any other party shall immediately turn over to the
Receiver, all sums in existence on the date hereof that are
related or pertain to, or derived from the Assets, including, but
not limited to (a) all cash on hand; (b) all cash equivalents and
negotiable instruments (such as checks, notes, drafts or other
related documents or instruments); and (c) all sums held in
accounts in any financial institutions, including but not limited
to, all sums,of any kind relating to the use, enjoyment,
possession, improvement or occupancy of all or any portion of the
Assets.
Except as directed by the Receiver, Kerr, Kerr
8.
Buildings, Inc., their affiliates, agents, officers, directors,
shareholders, members, employees, representatives or creditors,
and all other persons or entities, are hereby prohibited from
undertaking any act for or on behalf of Kerr and/or Kerr
Buildings, Inc ► r interfering in any way with the acts of the
Receiver, and from in any way, manner or means, wasting, disposing
of, transferring, selling, assigning, pledging, canceling,
concealing, interfering with, or hypothecating any of the Books
and Records or the Assets.

Upon the request of the Receiver, the
10

foregoing persons and entities shall cooperate and affirmatively
assist the Receiver in making available to the Receiver or his
agents, the Books and Records and the Assets, Nothing in this
paragraph shall be construed to require a waiver of any attorneyclient privilege.
The Receiver, and his agents, including his counsel and
9.
accountants, shall be entitled to reasonable compensation for
services rendered and reimbursement for expenses (a) related to
the Receiver's duties, rights, and obligations under this Order or
any future' orders of the Court and applicable law; (b) related to
the administration, management, and protection of the Assets; or
(c) related to the defense or prosecution of any claim or suit
brought against the Receiver or by the Receiver against any person
or entity. Such compensation of the Receiver and his agents, his
counsel and his accountants shall be reviewed by the Court and
awarded from the Receivership estate.
IQ. The Receiver shall be compensated based upon his normal
billing rate of $150.00 per hour and the Receiver shall be
reimbursed for all reasonable and necessary out of pocket costs
and expenses. Travel time, if necessary, will be paid at $100.00
per hour. With respect to seeking compensation and reimbursement
of costs and expenses for the Receiver, his agents or legal
counsel, the Receiver shall describe such compensation, expenses
and reimbursement in applications which will be submitted to the
Court for approval prior to payment.
11. The Receiver shall have full and unrestricted access to
all of the Assets, and Kerr and Kerr Buildings, Inc., and their
officers directors, shareholders, employees and agents, and any
other party are directed to take all steps necessary to give the
Receiver access to the premises of Kerr and Kerr Buildings, Inc.,
11

and to give the Receiver all keys to the facilities of Kerr and
Kerr Buildings, Inc.
12. In carrying out the duties as set forth herein, the
Receiver is entitled to act in the exercise of his own sound
business judgment as he deems appropriate within his sole and
exclusive discretion, The Receiver shall not be liable for any
action taken or not taken by him in good faith and shall not be
liable for any mistake of fact or error of judgment or for any
acts or omissions of an kind unless caused by the willful
misconduct or gross negligence on the part of the Receiver..
13. The Receiver may, from time to time,, make payments to
Scott Bishop, and his successors and assigns, on the judgment in
the amount of $79,648.00 against Kerr and Kerr Buildings, Inc.,
through such acts including but not limited to, the collection of
accounts receivable and insurance proceeds and sale of the real
and personal property in which Scott Bishop, and his successors
and assigns, have a lien interest.
14.

The Receiver shall serve without bond.

15.

The terms of this Order shall continue in full force and

effect unless and until further order of this Court.
IT IS SO ORDERED.

DATE

7

JUDGE

cc: Receiver Christopher M. Frasor
Attorney Alan J. Lehenbauer
Attorney Mark Tolies
Jeremy Kerr, Inmate #A686150
12

n

n
Fit ED
KFNr;V tCUKTY
COMHuM f; CAS COURT

i__,

2218 Ml 25 P 12= 3 5
CONNIE L. ECKFITKEY
CLERK CF COURTS

u

/■

IN THE COMMON PLEAS COURT OF HENRY COUNTY, -OHIO
Kerr Buildings, Inc.
Plaintiff,

)

Case No. 11-CV0001

)

NUNC PRO TUNC CHARGING ORDER

VS.

)

Scott Bishop

/

Defendant,
vs.

Alan J. Lehenbauer (0023941)
Attorney for Defendant Bishop
The McQuades Co., L.P.A.
PO Box 237
Swanton, OH 43558
Phone: (419) 826-0055
FAX: (419) 825-3871

)
)

Jeremy Kerr

E-mail: mcquadelaw@embarqmail. com

)

Third-Party Defendant. )
This day this cause came to be heard upon Motion for a Nunc
Pro Tunc Charging Order, filed by Defendant, Scott Bishop, seeking
a nunc pro tunc Order charging Third-Party Defendant, Jeremy
Kerr's interest in the following limited liability companies:
Beaver Creek Development Co., LLC
13926 Defiance Pike
Rudolph, OH 43462
Beaver Creek Properties, LLC
13926 Defiance Pike
Rudolph, OH 43462
I"*

^

(hereinafter referred to as the "Limited Liability Companies")
.

The Court, being duly advised in the premises, finds that
said Motion is well taken.
IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED that said
Motion is hereby granted, and that Third-Party Defendant's limited
1
JOURNAL,

,PAGI

JOURNALIZED DATE

U3d

n

n

liability interests in the Limited Liability- Companies are
hereby charged with payment of the Defendant's judgment, the
principal sum of $79,648.00, together with interest at the
statutory rate of three percent per annum from October 16, 2012,
/

and costs of court in the amount.of $25.00.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that Third-Party
Defendant Jeremy Kerr, the Limited Liability Companies, their
employees, agents, servants and representatives, are hereby
retrained from disposing of, selling, transferring, donating,
withdrawing, disbursing and/or encumbering any and all property in
which an interest is held by Jeremy Kerr and/or the Limited
Liability Companies, including but not limited to the following
parcels in Wood County, Ohio:
• Parcel: X78-509-350307009000
Address: 13345 Ash, Weston, OH 43569
See Data for Parcel X78-509-350307009000 ("Exhibit 1")
• Parcel: A01-311-040000009500
Address: 10730 Cygnet Rd., Cygnet, OH 43413
See Data for Parcel A01-311-040000009500 ("Exhibit 2")
• Parcel: 132-410-240000021000
Address: 13926 Defiance Pike, Rudolph, OH 43462
See Data for Parcel 132-410-240000021000 ("Exhibit 3")
• Parcel: P60-300-330407001000
Address: 28926 Simmons Rd., Perrysburg, OH 43551
See Data for Parcel P60-300-330407001000 ("Exhibit 4")
and the following parcel located in Lucas County, Ohio:
• Parcel: 05-08464
Assessor: 03-180-006
Address: 1714 Marne Ave., Toledo, OH 43613
Legal Description: Farmington Fourth Lot 318, TransNo.
13202842
See Lucas County Recorder Summary and Lucas County Parcel
Report (collectively "Exhibit 5")
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that any and all
payments, including but not limited to the distributions of cash
and other property and the allocations of profits, losses, income.,
2

n

n

gains, deductions, credits, or similar items to which Third-Party
Defendant, Jeremy Kerr (assignor), would have been entitled from
the Limited Liability Companies, be made instead to Defendant
Bishop (assignee) in reduction of his judgment, as contemplated by

1

R.C. §§ 1705.18(A) and 1705.19(A).
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the Limited
Liability Companies and the members comprising the Limited
Liability Companies make no payments, including but not limited to
the distributions of cash and other property and the allocations
of profits, losses, income, gains, deductions, credits, or similar
items to which Third-Party Defendant, Jeremy Kerr (assignor),
would have been entitled from the Limited Liability Companies, on
account of his interests in the Limited Liability Companies until
such time as Defendant Bishop (assignee)'s judgment has been
satisfied of record.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that-Defendant

\

Bishop serve copies of this nunc pro tunc ORDER by certified mail,
return receipt requested, upon the Limited Liability Companies, by
serving Third-Party Defendant, Jeremy Kerr, as well as those
persons or entities whom Defendant Bishop has reason to believe
may have a membership interest in the Limited Liability Companies.

3

I

FILK D

KEK3Y CUu’ITY
COHr-iv^' r'LEAS COURT
. - /

Z3!8 APR lb' P i* 21
I *

COMKjt L.r r
r:\EY
clem; u?- :: r’ulTS

IN THE COMMON PLEAS COURT OF HENRY COUNTY, OHIO

Kerr Buildings, Inc.
Plaintiff,
vs.

)

Case No. 11-CV0001

)

AMENDED ORDERS TO RECEIVER

)

Scott Bishop
Defendant,
vs.

Alan J. Lehenbauer (0023941)
Attorney for Defendant Bishop
The McQuades Co., L.P.A.
PO Box 237
Swanton, OH 43558
Phone:
(419) 826-0055
FAX:
(419) 825-3871

)
)
)

Jeremy Kerr

E-mail: mcquadelaw@embarqmail.com

)

Third-Party Defendant. )
This cause came on to be heard on Defendant Scott Bishop's
motion for a nunc pro tunc charging order and this court having
granted said motion and issued a nunc pro tunc charging order on
January 25, 2018, and being duly advised that Jeremy Kerr ("Kerr")
has interests in two limited liability companies, namely Beaver
Creek Development Co., LLC and Beaver Creek Properties, LLC
(hereinafter referred to as "the Limited Liability Companies"),
the Court hereby amends the Order Appointing Receiver, filed on
August 20, 2013, as follows:
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED:
1.

Receiver Christopher M. Frasor ("the Receiver") shall

take immediate possession, control, management, operation and
charge of Kerr Buildings, Inc.

The Receiver shall take immediate
1

App&hw &

.

possession, control and charge of Kerr's interests in the Limited
Liability Companies.

Pursuant to Ohio Revised Code §2735.04 and

under the control of this Court, the Receiver shall have all
authority and power of a receiver under Ohio law, including the
following powers and duties:
The Receiver shall take immediate possession,
a)
control, management and charge of the accounting books and records
of Kerr and Kerr Buildings, Inc •

of whatever nature and wherever

t

located, in the possession of Kerr and Kerr Buildings, Inc., or
any other person or entity, including all information regarding
the assets, liabilities, equity, -income and expenses of Kerr and
Kerr Buildings, Inc.‘ The Receiver shall take immediate
possession, control, management and charge of all of Kerr and Kerr
Building, Inc.'s financial statements (whether consolidated or by
individual entity), ledgers and journals, balance sheets, trial
\

balances, statements of cash flows, income statements, statements
of retained earnings, accounting journals and books of original
entry, including but not limited to (1) accounts receivable agings
and any other documentation which indicate the amounts owing from
customers on accounts receivable and from such amounts are or were
owing and when any amounts were collected and deposited, and the
use, application or disposition thereof; (2) fixed asset ledgers,
schedules or records documentation and/or appraisals Kerr and/or
Kerr Building, Inc.'s equipment, inventory, furnishings, and
supplies? (3) inventory listings or other detail; (4) all lists,
schedules or records pertaining to Kerr and Kerr Building,. Inc.'s
stocks, bonds, shares or interests in any mutual fund,
proprietorship, general or limited partnership, corporation, or
limited liability company, all notes or other instruments owing to.
Kerr and/or Kerr Building, Inc., and information regarding any
2

other intangibles of Kerr and/or Kerr Building, Inc.; (5) all
information and documentation which relates or pertains to any
checking, saving, banking and money management accounts of any
kind or nature of Kerr and/or Kerr Buildings, Inc., or into which
any proceeds of the collection or sale of any asset (including
accounts receivable) of Kerr and/or Kerr Buildings, Inc., have .
been deposited; (6) all accounts payable and receivable
documentation and information and all correspondence or written
documents regarding negotiations with current accounts or proposed
accounts; (7) all information of whatever type or nature,
regarding the payroll and benefits of the owners, management,
officers and employees of Kerr and/or Kerr Buildings, Inc.,
including wage or salary information, expense reimbursement
information, medical insurance information, or other employee
deductions withheld or to be withheld, and all information
regarding the trust fund or withholding taxes whether federal,
state, or local and any information regarding any and all of the
employer matching obligations or the employer payroll tax
obligations; (8) all information and documentation of any asset
transfers by Kerr and/or Kerr Buildings, Inc., in the past four
years; (9) all information and documentation regarding the
federal, state and local tax liabilities of Kerr and/or Kerr
Buildings, Inc., including any and all federal, state and local
tax returns filed or unfiled, and any documents generated during
the preparation and filing of tax returns; (10) all contracts
(including, without limitation, insurance policies) and leases to
which Kerr and/or Kerr Buildings, Inc •

/

are a party or have been a

party; (11) all information and documentation of any other,
financial
transaction or interest in and to any asset of Kerr
i - r
and/or Kerr Buildings, Inc., including but not limited all,*
3

information and documentation of any interests of Kerr and/or,Kerr
Buildings, Inc., in the'Limited. Liability Companies,, which may be .
necessary or pertinent to the Receiver's operation and managements
of Kerr and Kerr Buildings, Inc.'s assets;^.and (12) any
documentation that relates or pertains to Kerr and/or Kerr
Building, Inc., and is kept in the ordinary course of business in
connection with the record-keeping or accounting,

The information

described in this subparagraph shall hereinafter be referred to as
the "Books and Records."
The Receiver- shall take immediate possession,
b)
control, management and charge of all assets and property of Kerr
and Kerr Buildings, Inc., of whatever nature or kind, consisting
of all personal property and all real property, and all cash or
cash equivalents including, but not limited to, rights, title and
interest in and to all bank accounts of Kerr and/or Kerr
Buildings, Inc., all interests under insurance policies and
proceeds thereof, all accounts and notes receivable, all inventory
of any type or nature, all furniture, fixtures, equipment,
computers (hardware and software), and all general intangibles of
Kerr and/or Kerr Buildings, Inc., all choses in action and causes
of action, including avoidance actions for transfers of any of the
assets of Kerr and/or Kerr Buildings, Inc., for less than
equivalent value or other improper transfers against the
transferees of those assets, all interests of Kerr and/or Kerr
Buildings, Inc., in the Limited Liability Companies, and any other
asset or interest owned by Kerr and/or Kerr Buildings, Inc., or in
which Kerr and/or Kerr Buildings, Inc., assert an interest which
has any value (collectively, "the Assets"), and the Books and
Records and the Assets are hereby placed in custodia legis and are
subject to the exclusive jurisdiction of this Court.
4

-The Receiver shall have the authority to operate r.
c)
and manage the businesses of Kerr^and Kerr Buildings, Inc. as he
deems prudent in his sole and exclusive discretion throughout this
litigation, subject to further order of this Court,

The Receiver

shall preserve and care for any and all of the Assets and utilize
any and all of the Assets to preserve and maximize the value of
the Assets.
The Receiver is authorized to collect all profits,
d)
rents, proceeds and revenues of any nature whatsoever generated
from the Assets and/or the business operations of Kerr and/or Kerr
Buildings, Inc. (including, without limitation, insurance
proceeds), and to pay all necessary expenses relating to said
operations, as he deems prudent in his sole discretion.
e)

The Receiver shall have the authority to maintain

or purchase insurance from any agent or carrier, of any type
reasonably necessary or desirable, on all the Assets, subject to
maintaining adequate coverage appropriately assigned to Scott
Bishop and naming Scott Bishop as a loss payee thereof.
The Receiver is authorized to establish or maintain
f)
one or more bank accounts in the Receiver's name for his
operations as Receiver in this matter at any federally insured
bank with offices in Wood County, Ohio,

The Receiver shall keep a

true and accurate account of any and all receipts and
disbursements which the Receiver shall receive or make as Receiver
in the course of the operation of the businesses of Kerr and/or
Kerr Buildings, Inc.
Upon request of Scott Bishop, and subject to
g)
further Court Orders, the Receiver is authorized to negotiate and
effect an orderly sale, transfer, or assignment of all or a
portion of any of the Assets (including collection of accounts
5

receivable and proceeds of available insurance) in or outside of
the ordinary course of business of Kerr and/or Kerr Buildings,
Inc., or of all or a portion of Kerr and/or Kerr Buildings, Inc.'s
businesses as a going concern and, from the proceeds thereof, to
pay the secured and unsecured indebtedness of Kerr and/or Kerr
Buildings, Inc., including indebtedness which arises during the
course of the Receiver's operation of the businesses of Kerr
and/or Kerr Buildings, Inc., in accordance with the respective
priorities of such obligations.
The Receiver is authorized but not required to
h)
institute, prosecute, or intervene in any lawsuit, summary
proceeding or investigation against any other person(s) or
entity(ies) to preserve and/or maximize the value of the Assets or
to obtain possession of any of the Assets unlawfully in the
possession of third parties.
The Receiver is authorized but not required to
i)
defend actions against Kerr and/or Kerr Buildings, Inc., and may
incur expenses to defend such actions to the extent that he
believes, in his soie discretion, that it will protect and
preserve the Assets.
The Receiver is authorized but not required to
j)
perform pursuant to the terms of any existing contracts, including
employment contracts, executed by Kerr and/or Kerr Buildings,
Inc., in connection with the businesses of Kerr and/or Kerr
Buildings, Inc., or to reject such contracts, including employment
contracts, to the extent that the Receiver determines, in his sole
discretion, that such performance or rejection will preserve and
maximize the value of the Assets.
The Receiver is authorized to negotiate with any
k)
and all interested person(s) concerning the use, assignment, sale,
6

collection, or lease of any of the Assets.
The Receiver is authorized to employ any
1)
assistants, servants, agents, counsel or other persons deemed
necessary or desirable to assist the Receiver in diligently
executing the duties imposed upon the Receiver by this Order and
Ohio law.
m)

The Receiver is hereby authorized to take any and

all actions, not specifically enumerated herein, which are
necessary to properly and adequately manage, control, operate,
maintain and protect the business operations and assets of Kerr
and Kerr Buildings, Inc., during the pendency of this action.
2.

Notwithstanding the foregoing, the Receiver and the

Receivership estate shall not be liable for the payment of taxes,
assessments or utility charges pre-dating the date of this Order.
Any individual or entity receiving a copy of this Order is hereby
enjoined and restrained from discontinuing service to the Receiver
or the Receivership estate based upon the non-payment of such
taxes or utilities prior to the date of this Order and from
attempting to collect taxes and utility charges from the Receiver
pre-dating the date of this Order.
3.

Kerr, Kerr Buildings, Inc., the Limited Liability

Companies, and any persons, firms or entities acting under the
direction of Kerr and/or Kerr Buildings, Inc., and any third
parties, persons, firms or entities, shall, upon presentation of a
copy of this Order, identify the location of and deliver to the
Receiver, any and all receivership property, both the Books and
Records and the Assets, in the possession or under the control of
such parties; and all persons are enjoined and restrained (a) from
payment of any amounts owing to Kerr and/or Kerr Buildings, Inc.,
to anyone other that the Receiver and (b) from in any way
7

disturbing or interfering with the collection, management or sale
of any of the Assets.
4.

All creditors, claimants, bodies politic, parties in

interest, and their respective attorneys, servants, agents, and
employees, and all other persons, firms, and corporations be, and
they hereby are, jointly and severally, enjoined and stayed from
commencing or continuing any action at law or suit or proceeding
in equity to foreclose any lien or enforce any claim against Kerr
and/or Kerr Buildings, Inc., or the Books and Records or Assets,
or against the Receiver in any court,

The parties are further

stayed from executing or issuing or causing the execution or
issuance out of any Court of any writ, process, summons,
attachment,, subpoena, replevin, execution, or other process for
the purpose of impounding or taking possession of or interfering
with, or enforcing any claim or lien upon any property owned by or
in the possession of Kerr, Kerr Buildings, Inc., or the Receiver,
and from doing any act or thing whatsoever to interfere with the
Receiver in the discharge of his duties in these proceedings or
with the exclusive jurisdiction of this Court over Kerr and Kerr
Buildings, Inc., the Books and Records and Assets and the said
Receiver.

Notwithstanding anything contained in the foregoing,

Scott Bishop may foreclose his liens on the real property owned,
in whole or in part, by Kerr and/or Kerr Buildings, Inc.
5.

Kerr and Kerr Buildings, Inc., and their agents and

employees, and any other party shall immediately turn over to the
Receiver any and all Books and Records.
6.

Kerr and Kerr Buildings, Inc., and their agents and

employees, and any other party shall immediately turn over to the
Receiver, all sums in existence on the date hereof that are
related or pertain to, or derived from the Assets, including, but
8

t

not limited to (a) all cash on hand; (b) all cash equivalents and
negotiable instruments (such as checks, notes, drafts or other
related documents or instruments); and (c) all sums held in
accounts in any financial institutions, including but not limited
to, all sums of any kind relating to the use, enjoyment,
possession, improvement or occupancy of all or any portion of the
Assets.

7.

Except as directed by the Receiver, Kerr, Kerr

Buildings, Inc., the Limited Liability Companies, their
affiliates, agents, officers, directors, shareholders, members,,
employees, representatives or creditors, and all other persons or
entities, are hereby prohibited from undertaking any act for or on
behalf of Kerr and/or Kerr Buildings, Inc., interfering in any way
with the acts of the Receiver, and from in any way, manner or
. means, wasting, disposing of, transferring, selling, assigning,
pledging, canceling, concealing, interfering with, or
hypothecating any of the Books and Records or the Assets,

Upon

the request of the Receiver, the foregoing persons and entities
shall cooperate and affirmatively assist the Receiver in making
available to the Receiver or his agents, the Books and Records and
the Assets.

Nothing in this paragraph shall be construed to

require a waiver of any attorney-client privilege.
8.

The Receiver, and his agents, including his counsel and

accountants, shall be entitled to reasonable compensation for
services rendered and reimbursement for expenses (a) related to
the Receiver's duties, rights, and obligations under this Order or
any future orders of the Court and applicable law; (b) related to
the administration, management, and protection of the Assets; or
(c) related to the defense or prosecution of any claim or suit
brought against the Receiver or by the Receiver against any person
9

.

or entity.

Such compensation of the Receiver and his agents, his

counsel and his accountants shall be reviewed by the Court and
awarded from the Receivership estate.
9.

The Receiver shall be compensated based, upon his normal

billing rate of $150.00 per hour and the Receiver shall be
reimbursed for all reasonable and necessary out of pocket costs
and expenses,
per hour.

Travel time, if necessary, will be paid at $100.00

With respect-to seeking compensation and reimbursement

of costs and expenses for the Receiver, his agents or legal
counsel, the Receiver shall describe such compensation, expenses
and reimbursement in applications which will be submitted to the
Court for approval prior to payment.
10.

The Receiver shall have full and unrestricted access to

all of the Assets, and Kerr and Kerr Buildings, Inc., and their
officers, directors, shareholders, employees and agents, and any
other party are directed to take all steps necessary to give the
Receiver access to the premises of Kerr and Kerr Buildings, Inc.,
and to give the Receiver all keys to the facilities of Kerr and
Kerr Buildings, Inc.
11.

In carrying out the duties as set forth herein, the

Receiver is entitled to act in the exercise of his own sound
business judgment as he deems appropriate within his sole and
exclusive discretion.

The Receiver shall not be liable for any

action taken or not taken by him in good faith and shall not be
liable for any mistake of fact or error of judgment or for any
acts or omissions of an kind unless caused by the willful
misconduct or gross negligence on the part of the Receiver.
12.

The Receiver may, from time to time, make payments to

Scott Bishop, and his successors and assigns, on the judgment in
the amount of $79,648.00 against Kerr and Kerr Buildings, Inc.,
10

7

V

through such acts including but not limited to, the collection of
accounts receivable and insurance proceeds and sale of the real
and personal property in which Scott Bishop, and his successors
and assigns, have a lien interest.
13.

The Receiver shall continue to serve without bond.

14.

The terms of this Order shall continue in full force and

effect unless and until further order of this Court.
IT IS SO ORDERED.

DATE

JUDG

cc: Receiver Christopher M. Frasor
Attorney Alan J. Lehenbauer
Jeremy Kerr, Inmate #A686150

11

L

J

AFFIDAVIT PURSUANT TO OSC 2969.25
CIVIL COMPLAINTS AND CIVIL APPEALS FILED WITHIN
THE LAST FIVE YEARS BY JEREMY KERR

T, Jeremy Kerr, after being duly cautioned and sworn,
states as follows:
1.

On 9-28-15, in the Northern District of Ohio (3:15-CV-

2006) Kerr v Turner, I filed a Writ of Habeas Corpus in which I
claimed that

my Wood County Conviction lacked sufficient evidencne.

The Writ wasdenied.
2.
2438)

On 11-25-15, in the" Northern District of Ohio (3:15—CV—
Kerr v Turner, I filed a Writ of Habeas Corpus in which I

claimed that my Ottawa County Conviction lacked sufficient
evidence.
3.

The Writ was denied.
On 5-25-17, in the Ohio Supreme Court (2017-0717)

Kerr v Turner,

I filed a Writ of Habeas Corpus in which I claimeed

that my Wood County Conviction lacked sufficient evidence.

The

Writ was dismissed.
4.

On 9-1-17, or approxamatly around, in the BAP of the

Sixth Circuit (2017-8031)

McDermott v Kerr, I filed a Direct

Appeal of the Bankruptcy Court’s Decision to dismiss my Bankruptcy
Petition.
5.

The case was dismissed on my motion.
On 10-25-17, in the Ohio Supreme Court (2017-1502)

State

ex rel Kerr v Reger, I filed a Writ of Mandamus to compel Judge
Reger to perform a De Novo Review of my challenge to a void
judgment.
6.

The Writ was dismissed.
On 1-22-18, in the Ohio Supreme Court (2018-0100)

State

ex rel Kerr v Kelsey, I filed a Writ of Mandamus to compel Judge
Kelsey to conduct a De Novo Review of my challenge to a void

• -1-

j

• '

judgment.'

The Writ was dismissed.

On 3-20-18, in the Ohio Supreme Court (2018-0425)
State ex rel Kerr v Reger,

I filed a Writ of Prohibition alleging

that my Wood County Conviction was void.
'

'8.

On 7-23-18,

The Writ was dismissed.

in the Third Appellate District

(7-18-26)

Kerr Buildings, Inc v Bishop v Kerr, I filed a Direct Appeal of
the Henry County Court's Decision denying my Motion to Vacate Void
Order Appointing Receiver.
9.

The case was dismissed.

On 8-30-18, in the Ohio Supreme Court

(2018-1063)

State ex rel Kerr v Reger, I refiled the,Writ.of Prohibition in
paragraph 7 belieiving that I corrected the Complaint.

The Writ

was dismissed.
10.

On 9-21-18, in the Ohio Supreme Court (2018-1329)

State ex rel Kerr v Collier, I filed a Writ of Prohibition allegig
that' the Henry County Court's Charging Order and Order Appointng
Receiver were void. . The Writ was dismissed.
11.

On 8-30-18, in the Third Appellate District

(7-18-28)

Kerr Buildings, Inc, v Bishop v Kerr, I filed a Direct Appeal of
the Henry County Court's Decision denying my Motion to Vacate the
void Charging Order and Order Appointing Receiver.

The case was

dismissed.
12.

On 10-29-18, in the Ohio Supreme Court

(2018-1543)

State ex rel Kerr v Winter, I filed a Writ of Prohibition alleging
that my Ottawa County Conviction was void.
13.

The Writ was dismissed.

On 1-14-19, in the Sixth Appellate District (2018-WD-.

0005)- State ex rel Kerr v Pollex, I filed a Writ of Prohibition
in which I claimed that the 'Wood County Court lacked subject matter

-2-

jurisdiction under ORC 2901.11(A).
14.

The Writ was dismissed.

On 1-28-19, in the Third Appellate District

(9-19-0006)

State ex rel Kerr v Turner, I filed a Writ of Habeas Corpus
alleging, that the Wood County Court lacked subject matter jurisdi
jurisdiction under ORC 2901.11(A).
15.

The Writ was dismissed.

On 2-28-19, in the Ohio Supreme, Court

(2019-0307)

State ex rel Kerr v Turner, I filed a Writ of Habeas Corpus in
which I claimed that my Ottawa County Conviction was wholly devoid
of any evidence that could prove intent to deprive.

The Writ was

dismissed.
16.

On 4-29-19, in the Third Appellate District

(7-19-05)

State ex rel Kerr v Collier, I filed a Writ of Prohibition in
which I claimed that the Charging Order and Order Appointing Rece
Receiver were void because the Henry County Court violated my
Rights to Procedural Due Process by granting such Orders minutes
after the moving party filed it's motions.
17.

The Writ was dismissed.

On 5-6-19, in the Third Appellate District

(7-19-06)

Kerr Buildings, Inc v Bishop v Kerr, I filed a Direct Appeal of
the Henry County Court's refusal to modify the Charging Orders.
The case was dismissed.
18.

On 5-17-19, in the Third Appellate District

(9-19-30)

State ex rel Kerr v Turner, I filed a Writ of Habeas Corpus in
which I claimed that my Ottawa County Conviction was wholly devoid
of any evidence that could prove intent to deprive.

The Writ was

dismissed.
19.

On 6-4-19, in the Ohio Supreme Court

(2019-0752)

State ex rel Kerr v Pollex, I filed a Direct Appeal of the Sixth

-3-

Appellate Court's Judgment Entry dismissing the Complaint for Writ
Prohibition in paragraph 13..
•20.

On 5-6-19, in the Ohio Supreme Court (2019-0620)

State ex rel Kerr v Turner, I filed a Direct Appeal of the Third
Appellate District's Judgment Entry dismissing my requested
Writ of Habeas Corpus in paragraph 14. Judgment was affirmed.
21. .6-24-19; in the Sixth Appellate District (2019-WD-0047)
State ex rel Kerr v Kelsey, I filed a Writ of Prohibition in which
I claimed that the judgment rendered against me was void because
Judge Kelsey illegally allowed the plaintiff in the case to amend
me to a void Default Judgment.
22.

The Writ was dismissed.

On 6-28-19, in the Ohio Supreme Court (2019-0888)

State ex rel Kerr v Collier, I filed a Direct Appeal of the Third
Appellate District's Judgment Entry dismissing my requested Writ
The judgment was affirmed because

of Prohibition in paragraph 16.

the Ohio Supreme Court wholly ignored the fact that Judge Collier
violated my Rights to Procedural Due Process.
23.

On 7-26-19, in the Ohio Supreme Court (2019-1024)

State ex rel Kerr v Turner, I filed a Direct Appeal of the Third
Appellate District's Judgment Entry dismissing my requested Writ
The judgment was affirmed.

of Habeas Corpus in paragraph 19.
24.

On 8-28-19, in the Ohio Supreme Court

(2019-1196)

S t a te ex rel Kerr v Kelsey, I filed a Direct Appeal of the Sixth
Appellate District's Judgment Entry dismissing my requested Writ
of Prohibition in paragraph 21.

The case is pending.

-4-

25.

On 10-7-19, in the Ohio Supreme Court (2019-1362)

Kerr Buildings, Inc. Bishop v Kerr, I filed a Discretionary Appeal
of the Third Appellate District;s Judgment Entery that affirmed
the Henry Court's Decision.

(SEe paragraph 17)

The Ohio

Supreme Court denied jurisdiction.
26.

On 3-30-20, in the Northern District of Ohio,

(Case no 3:20-CV-0670) Kerr v Turner, I filed a Writ of Habeas
Corpus in I claimed that the Appellate Court's "Significant
Amount of Work" Test is an unconstituional test.

The action is

pending.
Further, Affiant sayeth naught.
STATE OF OHIO

)

COUNTY OF MARION

) ss
)

cW-l
AFFIANT

O

Sworn to, before me and subscribed in my presence on this

L

day of
DONNA EVANS
NOTARY PUBLIC • STATE OF OHIO
Recorded in Crawford County
Mycommte&lon expires Feb. 12,2024

, 2020.

NOTARY PUBLIC

: 9-O'^V

My Commision Expires:

-<5-

r)
i COURT Of JffffSStUSftMRVCOuMty

[SEP 0 3 2019
KIM 3TGUFFER
• s-i
CLERK

IN THE COURT OF APPEALS OF OHIO
THIRD APPELLATE DISTRICT
HENRY COUNTY
KERR BUILDINGS, INC.,
PLAINTIFF-APPELLEE,
v.

CASE NO. 7-19-06

SCOTT BISHOP,
DEFENDANT-APPELLEE,
v.

JEREMY KERR,

JUDGMENT
ENTRY

THIRD-PARTY DEFENDANT/
APPELLANT.
This appeal, having been placed on the accelerated calendar, is being
considered pursuant to App.R. 11.1(E) and Loc.R. 12. This decision is, therefore,
rendered by summary judgment entry, which is controlling only as between the
parties to this action and not subject to publication or citation as legal authority
under Rule 3 of the Ohio Supreme Court Rules for the Reporting of Decisions.
Third-party defendant-appellant, Jeremy Kerr (“Kerr”), pro se, appeals the
April 15, 2019 judgment of the Henry County Court of Common Pleas denying his

JOURNAL.

l

PAGE.

JOURNALIZED DATE

3.11

n
Case No. 7-19-06
motion challenging the trial court’s amended charging order. For the reasons that
follow, we affirm.
In 2012, the trial court dismissed with prejudice a breach-of-contract
complaint filed by Kerr on behalf of Kerr Buildings, Inc. (“Kerr Buildings”) against
defendant-appellee, Scott Bishop (“Bishop”), and awarded judgment in favor of
Bishop. Kerr did not appeal that entry; rather, he later appealed the trial court’s
denial of his motion to set aside the appointment of a receiver, which this court
affirmed.1 Kerr Bldgs., Inc. v. Bishop, 3d Dist. Henry No. 7-14-07, 2014-Ohio5391, H 1. The facts relevant to this appeal are as follows.
After this court determined that the trial court properly denied Kerr’s motion
to set aside the appointment of the receiver, Kerr filed three additional motions
attacking the trial court’s charging orders and orders relative to the receiver, which
were denied by the trial court.2 (Doc. Nos. 104, 105, 106,113, 117, 120,121 ,122,
124, 125, 128, 129, 131, 136). (See Kerr Bldgs., Inc. v. Bishop, 7-18-26, Aug ■

1,

2018 Accelerated JE); (Kerr Bldgs., Inc. v. Bishop, 7-18-28, Sept. 20, 2018
Accelerated JE).

^ On January 25 2018, the tnal court amended the charging order. (Doc. No. 111). OnAprilI6 2018 the
trial court issued an amended receiving order. (Doc. No. 118).
’
’

-2-

n

n

Case No. 7-19-06
On March 18, 2019, Kerr filed a “motion to modify” the trial court’s
amended charging order, alleging that it exceeds the scope of R.C. Chapter 1705.
(Doc. No. 141). On March 27, 2019, Bishop filed a motion to dismiss Kerr’s
motion, arguing that the trial court lacked jurisdiction to consider Kerr’s motion
because it seeks reconsideration of a prior final and appealable order of the trial
court. (Doc. No. 144). Treating Kerr’s motion as a Civ.R. 60(B) motion, the trial
court dismissed Kerr’s motion on April 15, 2019. (Doc. No. 145). Kerr filed his
notice of appeal on May 6,2019 and raises four assignments of error for our review,
which we address together. (Doc. No. 147).
Assignment of Error No. I
The Trial court exceeded its authority under RC.1705.18 and
RC.1705.19 [sic] when it deprived Appellant’s statutory
exemption as a member of a limited liability company by (1)
issuing an order that restricts Appellant from selling properties
held by the limited liability company and (2) directing the
Receiver to take immediate possession, control, management,
operation, and charge of the limited liability companies.
Assignment of Error No. II
The Trial Court lacked authority under Ohio’s Void Judgment
Jurisprudence to treat Appellant’s motion as a Civ.R. 60(B)
motion.
Assignment of Error No. Ill
The Trial Court was absent Constitutional Authority to issue a
Charging Orderbefore [sic] it could be reasonably calculated that
Appellant had an opportunity to gain knowledge of the
-3-

n
Case No. 7-19-06

proceeding, and the, an opportunity to appear and present
objections.
Assignment of Error No. IV
The Trial Court lacks authority under Ohio’s Void Judgment
Jurisprudence to cure its void orders by amending them.
In his assignments of error, Kerr argues that the trial court erred by recasting
his “motion to modify” as a Civ.R. 60(B) motion and by subsequently dismissing
his motion.3 Kerr contends that the trial court’s amended charging order is void
because it grants authority to the receiver beyond the authority permitted under R.C.
Chapter 1705.
Standard ofReview
Because it raises a question ofjurisdiction, we review de novo the denial of
a motion to vacate a void judgment. See Wells Fargo Bank NA v. Arlington, 5th
Dist. Delaware No. 13CAE030016, 2013-Ohio-4659, If 19,21. “De novo review is
independent and without deference to the trial court’s determination.” ISHA, Inc. v.
Risser, 3d Dist. Allen No. 1-12-47, 2013-Ohio-2149, U 25, citing Costner
Consulting Co. v. US. Bancorp, 195 Ohio App.3d 477,201 l-Ohio-3822,10 (10th
Dist.).

3 Notwithstanding the caption of Kerr’s motion, Kerr does not dispute that he is requesting that the trial court
vacate its amended charging order. (See Appellant’s Brief at 11).

-4-

n

n

Case No. 7-19-06

Analysis
“A court has the inherent authority to vacate its own void judgments.” Lingo
v. State, 138 Ohio St.3d 427, 2014-0hio-1052,

48, citing Patton v. Dierner, 35

Ohio St.3d 68 (1988), paragraph four of the syllabus. See also US. Bank, N.A. v.
Metzger, 7th Dist. Mahoning No. 14 MA 63, 2015-Ohio-839, If 14, citing
Westmoreland v. Valley Homes Mut. Hsg. Corp., 42 Ohio St.2d 291, 294 (1975),
citing 1970 Staff Note, Civ.R. 60(B) (“Any court has inherent power to vacate a
void judgment without the vacation being subject to a time limitation,

***

In effect

then, Civ.R. 60(B) deals with vacation of voidable judgments.”). A judgment
rendered by a court lacking subject-matter or personal jurisdiction is void and issues
of voidness can be raised at any time. See Patton at paragraph three of the syllabus;
Pratts v. Hurley, 102 Ohio St.3d 81,2004-0hio-1980, Tf 11; Cincinnati Bar Assn. v.
Hauck, 148 Ohio St.3d 203, 2016-Ohio-7826, 1f 28.
“A motion for relief from a void judgment [(a motion to vacate)] is often
used by a defendant who did not timely appeal the default judgment but wishes to
have that judgment declared void later without resorting to the requirements of
Civ.R. 60(B).” Metzger at If 14, citing Hayes v. A. Bonamase Contracting, Inc., 7th
Dist. Mahoning Nos. 12MA62 and 12MA161, 2013-Ohio-5383, U 17. See also
Arlington at If 20 (“A common law motion to vacate, instead of Civ.R. 60(B), is
utilized to vacate a void judgment.”).

-5-

n

n

Case No. 7-19-06
However, a court faced with a post-judgment motion can proceed to analyze
the motion under Civ.R. 60 where the petitioner’s voidness argument fails. See
Arlington at ^ 20.

Civ.R. 60(B) motions apply only to judgments that are

voidable rather than void.

Idquoting State ex rel DeWine v. 9150 Group, L.P.,

9th Dist. Summit No. 25939, 2012-Ohio-3339, U 7, quoting Beachler v. Beachler,
10th Dist. Franklin No. CA2006-03-007,2007-0hio-1220,118.
Civ.R. 60(B) provides:
On motion and upon such terms as are just, the court may relieve a
party or his legal representative from a final judgment, order or
proceeding for the following reasons: (1) mistake, inadvertence,
surprise or excusable neglect; (2) newly discovered evidence which
by due diligence could not have been discovered in time to move for
a new trial under Rule 59(B); (3) fraud (whether heretofore
denominated intrinsic or extrinsic), misrepresentation or other
misconduct of an adverse party; (4) the judgment has been satisfied,
released or discharged, or a prior judgment upon which it is based has
been reversed or otherwise vacated, or it is no longer equitable that
the judgment should have prospective application; or (5) any other
reason justifying relief from the judgment. The motion shall be made
within a reasonable time, and for reasons (1), (2) and (3) not more
than one year after the judgment, order or proceeding was entered or
taken.
In order to prevail on a motion brought pursuant to Civ.R. 60(B), the movant
must demonstrate that: (1) the party has a meritorious defense or claim to present
if relief is granted; (2) the party is entitled to relief under one of the grounds stated
in Civ.R. 60(B)(1) through (5); and (3) the motion is made within a reasonable time,
and, where the grounds of relief are Civ.R. 60(B)(1), (2), or (3), not more than one
-6-

n

n

Case No. 7-19-06
year after the judgment, order, or proceeding was entered or taken. GTE Automatic
Elec., Inc. v. ARC Industries, Inc., 47 Ohio St.2d 146 (1976), paragraph two of the
syllabus. “These requirements are independent and in the conjunctive; thus the test
is not fulfilled if any one of the requirements is not met.” Bish Constr., Inc. v.
Wickham, 3d Dist. Seneca No. 13-12-16, 2013-Ohio-421, H 15, citing Struck v.
Pelton, 70 Ohio St.3d 172, 174 (1994). “A motion for relief from judgment under
Civ.R. 60(B) is addressed to the sound discretion of the trial court, and that court’s
ruling will not be disturbed on appeal absent a showing of abuse of discretion.”
Griffey v. Rajan, 33 Ohio St.3d 75, 77 (1987). An abuse of discretion constitutes
more than an error of judgment; rather, it implies that the trial court acted
unreasonably, arbitrarily, or unconscionably. Blakemore v. Blakemore, 5 Ohio
St.3d 217,219 (1983).
The trial court did not err by recasting Kerr’s motion as a Civ.R. 60(B)
motion because the trial court’s amended charging order is not void. That is, Kerr’s
argument that the trial court misapplied R.C. Chapter 1705 does not attack the
jurisdiction of the trial court. See Cincinnati Bar Assn., 2016-Ohio-7826, at % 29.
“Unless a judgment was issued without jurisdiction or was procured by fraud, it is
considered valid, and even though it may be flawed in its resolution of the merits,
its integrity is generally not subject to collateral attack in a separate judicial

-7-

L

n
Case No. 7-19-06

proceeding.” Id. at 1f 28, citing Ohio Pyro, Inc. v. Ohio Dept, of Commerce, 115
Ohio St.3d 375,2007-0hio-5024,125.
Because Kerr does not allege any errors that would render the trial court’s
amended charging order void, the trial court properly converted Kerr’s motion to a
Civ.R. 60(B) motion and did not abuse its discretion by denying it. Kerr’s motion
-was not filed within the one-year time limit prescribed by Civ.R. 60(B)(1) through
(4) and does not allege fraud, so the trial court’s dismissal was proper.
Further, Kerr’s argument cannot form the basis for relief under Civ.R.
60(B)(5). Kerr filed multiple post-judgment motions challenging the trial court’s
orders appointing a receiver and charging orders—namely, this is the third post­
judgment motion attacking the trial court’s amended charging orders and the second
alleging that the trial court misapplied R.C. Chapter 1705. (See Doc. Nos. 120,131,
141). “‘[R]es judicata prevents the successive filings of Civ.R. 60(B) motions [for]
relief from a valid, final judgment when based upon the same facts and same
grounds or based upon facts that could have been raised in the prior motion.’”
Harris v. Anderson, 109 Ohio St.3d 101,2006-Ohio-1934, K 8, quoting Beck-Durell
Creative Dept., Inc. v. Imaging Power, Inc., 10th Dist. Franklin No. 02AP-281,
2002-0hio-5908, H 16, and citing Roberts v. Roberts, 2d Dist. Montgomery Nos.
20432 and 20446, 2004-Ohio-5799,125. Because Kerr’s previous post-judgment
motions were based on the same grounds, the same facts, or facts that could have

-8-

r\

i

'

Case No. 7-19-06
been raised in his first post-judgment motion challenging the trial court’s amended
charging orders, Kerr’s motion is barred by the doctrine of res judicata. See id. See
also Arlington, 2013-Ohio-4659, at K 41.
Kerr’s assignments of error are overruled.
Accordingly, for the aforementioned reasons, it is the order of this Court that
die Judgment Entry of the Henry County Court of Common Pleas be, and hereby is,
affirmed. Costs are assessed to Appellant for which judgment is hereby rendered.
This cause is remanded to the trial court for further proceedings consistent with this
judgment entry and for execution of the judgment for costs.
It is further ordered that the Clerk of this Court certify a copy of this judgment
entry to the trial court as the mandate prescribed by App.R. 27, and serve a copy of
this judgment entry on each party to the proceedings and note the date of service in
the docket as prescribed by App.R. 30.

DATED: SEP 0 3 2019
/jlr
-9-

COURT OF APPEALS HENRY COUNTY

!;«•

JUN 212019

IN THE COURT OF APPEALS OF OHIO
THIRD APPELLATE DISTRICT
HENRY COUNTY
STATE OF OHIO EX. REL,
JEREMY KERR,

KIM STOUFFER
CLERK

CASE NO. 7-19-05

RELATOR,
v.
JUDGE JOHN COLLIER,

JUDGMENT
ENTRY

RESPONDENT.

This cause comes on for determination of Relator's complaint for writ of
prohibition, Respondent’s motions to dismiss the complaint, and Relator’s
opposition to the motion to dismiss.
The complaint allege that Relator was a third-party defendant and
Respondent was the presiding judge in a 2011 civil action. A final judgment
awarding damages was rendered against Relator, a debtor’s exam was held, and
Respondent granted a motion for charging order against Relator’s interest in a
limited liability company. Thereafter, on August 20, 2013, Respondent granted a
motion for appointment of a receiver.
The complaint further alleges that, on March 10,2014, Relator filed a motion
to set aside the appointment of a receiver, Respondent filed a judgment denying the
motion to set aside on April 17, 2014, and Respondent’s judgment was affirmed on

Case No. 7-19-05

appeal. See Kerr Bldgs., Inc. v. Bishop, 3rd Dist. Henry No. 7-14-07, 2014-Ohio5391. Respondent has since granted motions for a nunc pro tunc charging order and
for amended orders to receiver. In the years following, Relator filed at least four
unsuccessful motions to vacate the appointment of a receiver.
Relator now seeks a writ of prohibition against Respondent that vacates the
“void” charging order (and nunc pro tunc charging order) and the “void” order
appointing receiver (and amended order of appointment) for lack of subject matter
jurisdiction and for lack of authority to grant the receiver power to continue his
possession and control of the limited liability company.
A writ of prohibition is an extraordinary writ issued by a higher court to a
lower court or tribunal to prevent usurpation or exercise of judicial powers or
functions for which the lower court or tribunal lacks jurisdiction. State ex rel.
Winnefeld v. Butler Cty. Ct. of Common Pleas (1953), 159 Ohio St. 225. Dismissal
of a prohibition complaint is appropriate if, after presuming the truth of all factual
allegations of the complaint and making all reasonable inferences in relator’s favor,
it appears beyond doubt that he can prove no set of facts entitling him to the
requested extraordinary writ of prohibition. State ex rel Hems ley v. Unruh, 128
OhioSt.3d 307, 201 l-Ohio-226.
In order to be entitled to a writ of prohibition, relator must establish that: (1)
respondent is about to exercise judicial or quasi-judicial power, (2) the exercise of
such power is unauthorized by law, and (3) denial of the writ will cause injury for
-2-

Case No. 7-19-05

which no other adequate remedy in the ordinary course of law exists. State ex rel
White v. Junkin, 80 Ohio St.3d 335, 1997-Ohio-340.

It is well settled that

prohibition will only lie where an inferior court patently and unambiguously lacks
jurisdiction over the cause. State ex rel. Litty v. Leskovyansky, 77 Ohio St.3d 97,
1996-Ohio-340.
Upon consideration of the complaint filed herein, the Court finds that it is
apparent beyond doubt that Relator can prove no set of facts entitling him to the
relief requested. First, Respondent is not “about to exercise” judicial or quasi­
judicial power, as the charging order and appointment of receiver were initially
issued in 2013, found not to be issued in error on appeal in 2014, and amended in
2018. Second, Respondent does not patently and unambiguously lack jurisdiction
over a statutory proceeding seeking a charging order and appointment of receiver to
satisfy a monetary judgment. SeeR.C. 1705.19 andR.C. 2735.01 Etseq.
Relator’s argument confuses the concept of lacking subject matter
jurisdiction to issue a judgment with having subject matter jurisdiction, but issuing
a judgment in error. In the latter circumstance, an adequate remedy at law exists by
way of appeal. Prohibition is not a substitute for appeal to correct an allegedly
erroneous result and, thus, is not available when an adequate remedy in the ordinary
course of the law exists. See State ex rel. Tubbs Jones v. Suster, 84 Ohio St.3d 70,
1998-Ohio-275.

-3-

Case No. 7-19-05

Accordingly, the complaint fails to state a claim upon which relief by writ of
prohibition can be granted and the motion to dismiss is well taken.
It is therefore ORDERED, ADJUDGED and DECREED that the
complaint for writ of prohibition be, and hereby is, dismissed at the costs of the
Relator for which judgment is hereby rendered.
s
%

JUDGES
TO THE CLERK:
Within three (3) days of entering this judgment on the journal, you are
directed to serve on all parties not in default for failure to appear notice of the
judgment and the date of its entry upon the journal, pursuant to Civ.R. 58(B).

PRpSIDINGW)MINISTRATIVE JUDGE
/(Signed pur^iant to App. R. 15(c))
DATED:

June 20, 2019

/his

-4-

